                                                                                                     I




                       UNITIW STATES DEPARTMENT OF EDUCATION

                                    OFFICE 0 ... INS PECTOR GENERAL

                                            FEP      6 2003




MEMORANDUM


TO: 	          Jack Martin
               Chief Financial Officer




FROM:          Helen Lew
               Acting Assistant In spector General for Audit Services

SUBJECT: 	     FEDERAL INTRAGOVERNMENTAL ACTIVITY AND BALANCES
               AGREED-UPON PROCEDURES REPORT
               (ED-OIG/A 17-00002)

The enclosed report presents the results of the U.S. Department of Education's Federal
Lntragovemmental Activity and BaJances agreed-upon procedures engagement. The purpose of
the engagement was to perfonn cellain procedures to compare and identify differences between
the Department's reconciliation of intragovcmmental transactions with its trading partners and
the Department's audited financial statements for fiscal year 2002. The Office of Inspector
General (DIG) contracted with Ernst & Young. LLP, Certified Public Accountants, to pcrfonn
the engagemenl. The DIG monitored the progress and completion of the work to ensure
compllnnce with Govemment Auditing SI01Jdards and standards established by the American
Institute of Certified Publi c Accountants.

The auditors have di scu ssed the findings with you or appropriate members of your staff during
the engagement. This report IS intended solely to assist the Department of the Treasury.
Financial Management Service (FMS), the General Accounting Office (GAO). and the Office of
Management and Budget (OM B), in evaluating Department management's assertions about its
Federallntragovemmental Activity and Balances. As such , no further action on your part is
necessary.

In accordance with the Freedom of ln fomlation Act (Public Law 90-23), reports issued by th e
Office of Ins pector General arc available, if requested, to members of the press and genera l
publi c to the extent infonnation contained therem is not subject to exemptions in the Act. Copies
of thi S report have been provided to the persons shown on the di stribution list.



                             400 MARYLAND AVE. S W WASH I NOTON, D.C. 20202-\5\0
Jack Martin                                                         ED-O IG/A I 7-DOOO2
Page 2


We appreciate the cooperation given us and Ernst & Young. LLP. during the engagement.
Should you have any questions concerning the repon. please contact me at 205-9604 or Todd
Givens at 205-7945.


Attachment

Distribution List:

Mark Carney - OCFO
Terry Bowie - OCFO
Bill Flemming - OCFO
AGREED UPON I'ROCEDURES
INTRAGOVERNMENTAL TRANSACTIONS
U,S. Dcpanment of Education
Year Ended September 30. 2002
i!J [RNST & Y6UNC UP                                   •   1:!.2~1-"ull'l.l!,u''''wnUl-'
                                                           \.\....... '").;\"", [l (   2()('Jto 

                                                                                                    N.\\   •   "hnor ~U! 1.1:1 htlClfl




                                  In de l)Cndc lIl Acco untant's H.cIJO rt 

                               O n Ap plyin g Ag reed-U p on Pr ocedul'es 



  To the Inspector Gencmi
  U.S. Department of Education

  We huvc perfofmed the procedures enumerated in the attachment. which were agreed to by the
  Department of the Treas ury, Financial Management Service (FMS). the General Accounting
  Onicc (GAO). and the Office of Management and Budget (OMB). These procedures \\lcre
  perfofmed solely to assist them in evaluating the U.S. Dcp:lrtlllent of Education (the Department)
  I11l.lJlngemcnt's assertion that it reconciled Federal intragovernmcntal activity and balances for thl!
  fiscal year ended September 30.2002. nnd compared the intragovemmcntal activity and balanc\!s
  per the linancial records supporting the audited department consolidated financia l statemen ts lor
  fiscal year 2002, as to amounts and USSGL accounLS with the final amounts and USSGL
  accounts sub mitted to FMS (FACTS I and/or FACTS NOTES). This agreed-upon procedures
  engagement was performed in accordance with aLtestation standards established by the American
  Institute of Certiried Public Accountants. The sliniciency of these procedures is solely the
  respons ibility of FMS, GAO Jnd OMB. Consequently. we make no representation regarding the
  sulliciency of the procedures described in the attachment either for the purpose for which this
  report was requested or for any other purpose. TIle procedures performed and the related
  findings are cnllmeraled in the attachment.

  We were not engaged to and did not perform an examination, the objective of which would be an
  expression of an opinion on management's assertion. Accordingly, we do 110t express slich an
  opinIon. I bd we performed additional procedures, other mattcrs might have corne to our
  attention that would ha\e been reported to you.

  This report is intended solely for the infonnation and usc of those parties in this report and is not
  intended to be and should not be used by anyone other than these speci fied parties.




  February 6. 2003
  Washington, D.C.
                                                                                        . \tt ~l c hIl1 C llt
~ r:KN~ I lit YUUNL                                                                               Page 1


                        .\GREED-liPO:'> I'ROCF.DL RES \ ~ Il E& \ FIN DI NGS

   Procedure I

   Rc\'ic\\ the eicctrolllc fi le prO\ Idcd by the agency (,FO of the responses to item 5 of the C FO
   Representations for Federal Intragovcnmenwl ACl!v lty amI Balances described in the Tre<lsury
   Financial f\lanual (TF\1). Section 4030.80. COplCS of the reconciliations, and confinnalions. For
   cJeh "Yes" response for "Flduciary             Federal Intfilgo\'cmmcillill Activity and Balances"
   rccollcdIJIIOnS, pcrfoml the followi ng steps:

                • 	 Compare the amounts in such reconciliations to suppo ning documentation.
                    Ind icate if no differences were found. Clearly ex plain any differences.

                • 	 Trace the adjustments. if any. identified 111 the reconciliation process that require
                    n:cQgllltion on the bQoks of the reporting entity (rather than on the books of the
                    trading partner) to documentation supportlllg recordmg of such amounts in the
                    agl:l1cy" s fin'l11clai records. Illlhcate if no dnTcrcnccs \\ cre iound. Clearly c\plam
                    <111:- di ffcn::nc\:<;


   Findlllgs:

   The follo\\ IIlg C\ccptlons \\ erc noted:

           FiduclJry halances wcre confimlcd against balances in the general ledger. In some cases.
           the Departmcnt clccted to accept the fiduciary hal:mces reported by its trading partners
           that submitted requests for COnfinll<lliol1.

       2 	 The amount (SO) confi nned by the fiou ciary tradi ng partner and accepted by the
           Department does not agree with lhe amount (S 145,330) in the general ledger.

       3. 	 The fiduciary account balances were compared to the Department's trial bal:.mce during
           the confirmatio n process. However. intragovcnlll1cntal ba lances from FACTS I could not
           he directly tied to the face of the financial s tatements due to I) sector changes made for
           financial st~lIement preparation purposes that arc not reflected in the FACTS fil e and 2)
           trad1l1£ partner cooe Issues.

       ~ 	 Tb~    tlltal liduclar~ transactions accepted (e-.g. confirmation rccei\'cd from tradmg
           l);lrtn~rs  \\ Ilh bJb.lIlccs. Signed by the Dep~H1m~llt Jnd rctllmed to traoing partners) by the
           IkpJnment do not agree \\ IIh Ihe IIllragO\ enunentJl balances reported III the audited
           consoild~II!.::d financ 1;11 statements. The fol1O\\ i ng 01 flcrcnccs were noted (i n thollsand s):


                    Intrago\"cnll1l('!lUal Liabilltics      52.331.292 

                    Inlr.lgO\cm11lcl1tal Costs              S1.54 1 

                                                                                                          .


~ [RNST & YOUNG 	                                   • Ernst &: Youn!: UP
                                                                                 A Uac hmell(
                                                                                       Page 3
         The Department represents to us Ih3t although they did not send confirmations to their
         trading partners or receive confinnalion from all its trading partners, the Depanment
         pcrfonncd other procedures to dctennine that intragovcmmental ba lances in the financial
         stalemcnlS arc fairly staled. The differences noted above arc substantially related to
         ullconfinncd payable to Treasury, and guarantee agencies federa l and restricted funds due
         10 Treasury. Other intfilgovemmental activity and balnnces not related to Treasury afC not
         materia l to the financial statements taken as a who le.

     5. 	 For SGL 2520 (G) 5669,883.75 in capitalized interest included in this alllount as reported
          by FFB is not reflected in the Depnrtrnentul balance per general ledger due to a difference
          in accouTll1l1g methodology, per the Department.

     6. 	 As renected on the Department's submission, for "No" responses to the question "was an
          ;:u.lJustment recorded" the Department had listed certain differences.

  Pro ced ure 2

  Rcvic\\ the electronic file provided by the agency CFO of the responses to item 6 of the CFO
  Representations for Federal Intragovemmcntal Activity and Ba lances described in the Treasury
  Financi:.1 Manual (TFM), Section 4030.80, copies of the reconciliations, and confinnations. For
  each "Yes" response for "Other       inlrago\'emmentai Activity and Balances" reconciliations,
  pcrfoml the following steps:

             • 	 Compare the amounts in such reconci liations to supporting documentation.
                 Indicatc ifno differenccs were found. C learly explain any diffcrences .

             • 	 Trace the adjustments, ifany, identified in the reconciliation process that require
                 recognition on the books of the reporting enlity (rather than 011 the books of the
                 trading partner) 10 doclllllenwtioll supporting recording of sllch amounts in the
                 ~Igcncy's financial records. Indicate irno differences were found. Clearly explain
                 an~ dirferences.


  Finding:

     7. 	 The Departmcnt {lid not COnfil1ll non.fiuuciary Iransactions with its trading partners. The
          DepartIllent believes however that it receivcd and responded to confirmation rcquests
          from its 1ll0S\ significant trading partners and, ill the case of the Department or Treasury,
          agreed balances 10 appropriate reports to and frolll the Department ofTrcJsury.

     8. 	 The Department was unable to identify all its trading panllers.

     9. 	 Except for two non-fiduciary trading partners, the Department elected to accept the
          balances reported by their non-fiduciary vendor agencies that subm itted confimlations.
                                                                                                            11
l!.!I UNST & YOUNG 	                                  • Emst & )nuog UP
                                                                                   A11achmcnl                I

                                                                                        P<lge4
                                                                                                             I
       to. Tilt.: Department \\ as unable to confinn non-fiduciary activity and bal<lnces reported by
           trading partners as follows (amounts in thousands):
                                                                                                             1




                    Intragovemmental Assets              $26,323
                    Intragovemmental Revenue             S 1.225                                             1


                    lntragovemmental Cost                $10,546
                                                                                                             I
       Il. "Advances to Others'·, an assel account, of$18.2I11illion was erroneous ly reponed on the
           FACTS I as an expense. The Depnrtment represents 10 us thai during the process of
           allocating the unidentified trading partner amount to the confinning non-fiduciary                I
           partners. S18.2 million was allocated 10 cxpenses for Department of Commerce and
           Derarll1lcllt of Defense. The allocation should have been to Advances 10 Others for these         I
           trading partners. The misclassific:Ltion affects bal;lrlCeS allrading partners leveillo! allhe
           Standard General Ledger Ic\·el.                                                                   I
       12. 	 The tOI,1I non-fiduciary transactions accepted (e.g. confinnation received from trading
            partners with balances, signed by the Departmcnt und ret limed to trading panners) by the            I
            Depanment do not agree with the intragavemmenlal balances reported in the audited
            consolidated financial statements. The followingdilTerences were noted (ill thousands):              I

                    Intragovemmental Receivable                  S19.883                                         I
           The Department represents to us Ihal although they did nol send confin1l3tions to their
           trading partners or receive confimlation from all its trading partners, the Department
           performed other procedures to dctemline lhat intragovenlmenlal ba lances in the financial
           statemenls are fairly Slated. Other intragovemmental activity and balances not relatcd to
           Treasury ilre 110t Illateriul to the financial statements taken as a whole.

       13. As rellected on the Dcpilrtmcn! 's submission. for ··No" responses to the questions ··was
           an adjustment recorded" the Department has listed certain di ffcrences.

   Prol·cdul"l' J

   RCHC\\ th!.! c\eclronlc fite proVided by Ihe agency CFO aflhe CFO Representations for Federal
   Intragovemmellti.L1 ActlvllY ilnd Balances. For cach ··Yes·' responsc, comparc the amounts
   cxc1mlLng LIltradep::lrtlllcntal activity and balances. in the agency audited conso lidated financial
   statements to the amounts in the agency final FACTS I and/or FACTS I NOTES reports to the
   U.S. OepartlllcLLl of Treasury Financial Management Sen· icc. Indicate if no differences were
   found . Clearly explain any diffcrenccs.

   Finding:

  The Department responded "No" to tIllS question.
